No. ________________
IN THE SUPREME COURT OF THE UNITED STATES
David S. Renteria,
Petitioner,
v.
Bobby Lumpkin, Director, Texas Department of Criminal Justice,
Correctional Institution Division,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner moves for leave the attached petition for a writ of certiorari without
prepayment of costs and to proceed in forma pauper.
Petitioner has previously been granted leave to proceed in forma pauperis in
the following courts:
The State Courts of Texas
The United States Court of Appeals for the Fifth Circuit (19-70009)
The United States District Court for the Western District of Texas (15-cv-62)
Undersigned counsel is appointed to represent Petitioner by the Court of Appeals
pursuant to the Criminal Justice Act.
Respectfully Submitted,
/s/ Michael Wiseman
Michael Wiseman

